Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 FOSTER CARE CHILDREN’S USE OF
     MEDICAID SERVICES IN
         NEW JERSEY




             INSPECTOR GENERAL

                 JULY 2003
               OEI-02-00-00360
                    OFFICE OF INSPECTOR GENERAL

                                   http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                             EXECUTIVE SUMMARY

OBJECTIVE

          To determine whether sampled foster care children are receiving Medicaid health care services
          in New Jersey.


BACKGROUND

          Currently, there are an estimated half a million children in foster care nationwide, many of whom
          are reportedly in poor health. Compared with children from the same socioeconomic
          background, foster children suffer much higher rates of serious emotional and behavioral
          problems and chronic physical disabilities. Despite their need, it appears that many foster
          children are not receiving adequate health care.

          This inspection focuses on the state of New Jersey and is one of eight states being evaluated.


FINDINGS

          Foster care children are deemed eligible for Medicaid services in New Jersey. However, our
          analysis of 2 years of Medicaid claims for 50 foster children in New Jersey show that few of
          these children are receiving Medicaid services, particularly Early and Periodic Screening,
          Diagnosis and Treatment (EPSDT) services. In addition, interviews with the caseworker and
          caregiver for each of the 50 children reveal that caseworkers and caregivers are not informed
          about the Medicaid program and they have received very little training in Medicaid services for
          foster children. Also, most caseworkers and caregivers did not receive their foster child’s
          medical information, and they report difficulty finding Medicaid providers.


Claims Data Indicate That Only Half the Children in our Sample are
Receiving Medicaid Services Despite Every Child Having Coverage

          Although all 50 children in the sample have Medicaid coverage, New Jersey Medicaid claims
          data show that only 24 of the 50 children have had a health care claim between April 1999 and
          April 2001. Only 11 children have claims for mandated EPSDT services.




Foster Care Children’s Use of Medicaid Services in NJ   i                                  OEI-02-00-00360
Sampled Caseworkers and Caregivers Are Not Informed About the
Medicaid Program, Do Not Have Their Foster Child’s Medical
Information, and Have Difficulty Finding Medicaid Providers

          Just one of the caseworkers reports having received any training in Medicaid services for foster
          children. In addition, few caregivers have been given the tools necessary to negotiate the
          Medicaid system, such as a list of Medicaid providers and a schedule of appointments that
          children need. Although the Centers for Medicare and Medicaid Services (CMS) requires that
          state Medicaid agencies inform eligible individuals about the EPSDT program, few caregivers
          and caseworkers have heard of EPSDT. In New Jersey, enrollment in Medicaid managed care
          is voluntary for foster care children, yet 76 percent of the caregivers interviewed are not aware
          of the managed care option. Also, most caseworkers and caregivers report difficulty finding
          Medicaid providers.

          Caseworkers for half the children in our sample say they either did not receive the child’s
          medical records or they received only partial records. Caregivers for 34 children also report
          that they did not receive a medical history or that the information they received was incomplete.
          According to New Jersey state law, the Division of Youth and Family Services is responsible
          for establishing and maintaining a foster child’s health care record.


CONCLUSION

          This inspection identifies several shortcomings in New Jersey’s child welfare and Medicaid
          systems that cause concern. We documented that, although all the children in our sample are
          covered by Medicaid, less than half have Medicaid claims and less than a quarter show EPSDT
          claims for preventive health care. Caseworkers and caregivers are not informed about the
          Medicaid system. They also do not have complete medical information about the children,
          perhaps compromising the children’s health care needs. The lack of training for both
          caseworkers and caregivers, the lack of effort to promote Medicaid managed care despite
          caseworker and caregiver concerns about access to Medicaid providers, and the lack of
          communication and coordination between the Division of Youth and Family Services and New
          Jersey Medicaid reveal that New Jersey may not be making reasonable efforts to assure that
          foster care children are receiving appropriate and necessary health care.


RECOMMENDATIONS

          We believe that the Administration for Children and Families (ACF), CMS, and the State of
          New Jersey need to address the shortcomings in New Jersey’s child welfare and



Foster Care Children’s Use of Medicaid Services in NJ   ii                                 OEI-02-00-00360
          Medicaid systems. Accordingly, to help ensure that all eligible foster care children receive their
          entitled health care services, we recommend that:

          •	         ACF work with New Jersey to provide more training to caseworkers and caregivers
                     on the Medicaid program, EPSDT, and managed care to help them better negotiate
                     these health care systems. Two possible vehicles through which ACF may bring about
                     such a change are the Child and Family Service Reviews and the annual Joint Planning
                     Process; and

          •	         ACF and CMS work with the State of New Jersey to address the concerns of
                     caseworkers and caregivers regarding the lack of access to Medicaid providers. They
                     should also work together to promote communication between New Jersey Medicaid
                     and the Division of Youth and Family Services so that the Division and caseworkers
                     have better information about the health care that foster children are receiving.



COMMENTS

          We received comments from ACF, CMS, and the State of New Jersey. Both ACF and CMS
          agree with our recommendations. The ACF, through the Child and Family Services Plans, will
          address the need for New Jersey to provide training to caseworkers and caregivers to ensure a
          greater level of service for foster children from Medicaid providers. The Child and Family
          Services Review for New Jersey in 2004 will determine if the efforts to improve training have
          led to improved medical health outcomes for foster children.

          The CMS agrees that New Jersey Medicaid should work with the Division of Youth and
          Family Services to provide information on the availability of Medicaid providers. The CMS
          offers to provide technical assistance to the state to promote this process.

          Both ACF and CMS made a number of technical comments that we incorporated into the
          inspection report, when appropriate. The full text of the comments received from ACF and
          CMS are included in Appendix D.

          The State of New Jersey indicated that, subsequent to our field work, several projects intended
          to impact the health care needs of foster children were initiated. The full text of those
          comments can also be found in Appendix D.




Foster Care Children’s Use of Medicaid Services in NJ   iii                                 OEI-02-00-00360
                           TABLE                         OF               CONTENTS


                                                                                                                            PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Only Half of the Children Are Receiving Medicaid Services . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Caseworkers and Caregivers Not Informed, Lack Medical Information and Providers . . . . . 9



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

APPENDICES

          A: New Jersey Foster Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          B: New Jersey State Laws and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

          C: New Jersey EPSDT Schedule . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

          D: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32




Foster Care Children’s Use of Medicaid Services in NJ                iv                                                  OEI-02-00-00360
                                         INTRODUCTION

OBJECTIVE

          To determine whether sampled foster care children are receiving Medicaid health care services
          in New Jersey.


BACKGROUND

          Currently, there are over half a million children in foster care nationwide, many of whom are
          reportedly in poor health. Compared with children from the same socioeconomic background,
          foster children suffer much higher rates of serious emotional and behavioral problems, chronic
          physical disabilities, birth defects, developmental delays, and educational difficulties.1 Half of all
          children in the child welfare system suffer from developmental delays or mental health problems
          that are serious enough to need clinical intervention.2 A General Accounting Office (GAO)
          report reviewed foster care populations from California, New York, and Pennsylvania in 1986
          and 1991. Compared to the 1986 population, the 1991 foster care children had more health-
          related problems, were at a higher risk for problems due to prenatal drug exposure, and
          entered foster care to a greater extent due to some form of neglect.3 In addition to the needs
          they share with other children, such as immunizations, routine well-child examinations, and
          treatment of childhood diseases, foster children clearly have a greater need for specialized
          health care services.

          Despite their need, it appears that many foster children are not receiving adequate health care.
          Many foster parents report difficulty in finding health care professionals who are willing to care
          for their children. It is estimated that 60 percent of all children in out-of-home care have
          moderate to severe mental health problems, yet less than one third of



          1
           Chernoff, R. et. al., Assessing the Health Status of Children Entering Foster Care, Pediatrics, 93:2, 1994.

          2
           Ensuring the Healthy Development of Foster Children, New York State Permanent Judicial Commission on
Justice for Children, 1999.

          3
           Foster Care: Parental Drug Abuse Has Alarming Impact on Young Children, General Accounting Office,
GAO/HEHS-94-89, 1994.




Foster Care Children’s Use of Medicaid Services in NJ            1                                              OEI-02-00-00360
          those children receive mental health services.4 A second GAO report issued in May 1995,
          entitled “Health Needs of Many Young Children are Unknown and Unmet,” found that a
          significant proportion of young foster children did not receive critical health-related services in
          the three locations studied (Los Angeles County, New York City, and Philadelphia County).5
          In fact, GAO estimated that only 1 percent of these children received Early and Periodic
          Screening, Diagnostic and Treatment (EPSDT) services6, a federal entitlement to
          comprehensive medical services for Medicaid-eligible children under the age of 21.

          Medicaid for Foster Children
          The Medicaid program provides health care to low income persons and long term care to the
          disabled and low income elderly. It is administered by the Centers for Medicare and Medicaid
          Services (CMS) and jointly funded by the federal and state governments. Within broad
          national guidelines, each of the states does the following: establishes its own Medicaid eligibility
          standards; determines the type, amount, duration, and scope of services; sets the rate of
          payment for services; and administers its own state Medicaid program. In 1999, Medicaid
          payments for foster care children nationwide approached $2.9 billion. 7

          According to Section 1902 (a)(10)(A)(i)(I) of the Social Security Act, foster children covered
          under Title IV-E of the Social Security Act are eligible for Medicaid. Foster children who are
          not eligible for Title IV-E usually qualify for Medicaid through other eligibility categories set
          forth by each state.

          New Jersey
          New Jersey’s foster care system is centrally managed. The New Jersey Department of Human
          Services is responsible for all the children in foster care within the state. At the time of this
          inspection, the state had just over 9,500 children in foster care. Within the Department, the
          Division of Youth and Family Services (the Division) handles the state’s family and child welfare
          services. New Jersey has five regional offices, 32 district offices and six adoption resource
          centers. Regional offices supervise district offices and adoption resource centers and provide
          administrative and support services. Caseworkers in district offices are responsible for
          placement, supervision, and coordination of services

          4
           Factsheet: The Health of children in Out-of-Home Care. Child Welfare League of America. Retrieved
3/14/03 from: http://www.cwla.org/programs/health/healthcarecwfact.htm.

          5
           Healthy Needs of Many Young Children are Unknown and Unmet, General Accounting Office,
GAO/HEHS-95-114, 1995. p 2.

          6
           Healthy Needs of Many Young Children are Unknown and Unmet, General Accounting Office,
GAO/HEHS-95-114, 1995. p 5.

          7
           HCFA-2082 Report for Fiscal 1999: http://cms.hhs.gov/medicaid/msis/99total.pdf.


Foster Care Children’s Use of Medicaid Services in NJ         2                                           OEI-02-00-00360
          for children; those in adoption resource centers have the added responsibility of preparing
          cases for parental rights termination court actions. See Appendix A for a more detailed
          description of New Jersey foster care.

          Also within the New Jersey Department of Human Services is the Division of Medicaid
          Assistance and Health Services. It administers the Medicaid program in New Jersey and is
          responsible for the Medicaid claims data. We refer to this division as “New Jersey Medicaid.”


METHODOLOGY

          This inspection is based on information gathered from multiple sources: Medicaid claims data, a
          review of state laws and policies, and interviews with state agency officials, caseworkers, and
          caregivers.

          Reasons for State Selection
          This inspection focuses on the State of New Jersey and is one of eight states being evaluated.
          New Jersey was selected because of its size, centralized child welfare system, and geographic
          proximity to the OIG regional office in New York City.

          Sample
          We constructed a two-stage sample of foster children. First, we randomly selected five
          Division of Youth and Family Services district offices in New Jersey. Second, we randomly
          selected 10 children from each office. This sample was pulled from all the children in those
          district offices who had been in continuous foster care placement for at least 6 months prior to
          April 2001. Because of our sample design, we do not generalize our findings to the universe of
          all New Jersey foster care children.

          We grouped placement types into two categories: 1) family care, in which a child lives in a
          family setting with non-relatives or relatives; and 2) residential care, in which a child is placed in
          a group home or larger residential facility with paid staff. Of the 50 children, 22 were in
          residential care and 28 were in family care at the time of data collection. We included the one
          case of an 18-year-old child living independently in the residential care category because a
          caseworker, not a foster parent, is responsible for the child.




Foster Care Children’s Use of Medicaid Services in NJ   3                                      OEI-02-00-00360
          Review of Medicaid Claims Data and State Laws and Policy

          Medicaid Claims Data. New Jersey Medicaid provided a paid claims history for 2 years for
          the children in our sample. The data include claims paid between April 1999 and April 2001.
          New Jersey Medicaid also provided encounter data. The vast majority of foster children in
          New Jersey are not in managed care and none of the children in our sample showed encounter
          data for our inspection period. As mentioned above, all the children in our sample had been in
          continuous care for at least 6 months prior to April 2001. Half the children were in continuous
          foster care the entire 2-year period. The other half of the children were in foster care for
          shorter lengths of time or were in and out of care over the 2-year period. We determined the
          periods of time the child was in foster care based on information given by the caseworkers and
          caregivers.

          In reviewing the Medicaid claims, we paid particular attention to the types of services, dates of
          service, settings, and diagnoses, where available. We excluded claims that were not health
          care-related, such as those for administrative or transportation costs. We also excluded claims
          with a service date for a time our data clearly show that the child was not in foster care or for a
          time after the study period. If it was not clear that the child was in foster care during a certain
          period of time, we included Medicaid claims corresponding to that period in our analysis.

          Several children in the sample have more than one Medicaid number. When a child enters
          foster care in New Jersey he or she receives a Medicaid number. If that child already has a
          Medicaid number through some other program, such as Temporary Assistance for Needy
          Families or Supplemental Security Income, the child will then have two Medicaid numbers.
          The Division of Youth and Family Services and New Jersey Medicaid program staff report that
          these numbers should be reconciled to leave a child with one Medicaid number, but in some
          instances the reconciliation does not occur. In these instances, Medicaid services could be
          billed under each of that child’s Medicaid numbers. New Jersey Medicaid program staff took
          this situation into account when compiling the claims data.

          In addition, New Jersey’s Department of Human Services provided a list of services paid by
          the Division of Youth and Family Services for children in the sample. The same methods used
          to analyze the Medicaid claims were used to analyze these health care payments.

          State Law and Policy Reviews. We reviewed state laws pertaining to the health care of
          foster children. We also collected and reviewed licensing requirements for foster homes and
          residential facilities, the current and proposed revisions of the foster parent handbook, and
          state-issued EPSDT-related information.




Foster Care Children’s Use of Medicaid Services in NJ   4                                    OEI-02-00-00360
          Interviews

          Caseworker Interviews. We interviewed each child’s caseworker either in person or by
          telephone. Some children had the same caseworker, giving us a total of 34 caseworkers for the
          50 children in our sample. Each interview focused on the caseworker’s understanding of and
          training in Medicaid, their experience accessing services for foster children, and any barriers to
          health care faced by foster children in general. Each caseworker spoke specifically about the
          sample child’s case and generally about his or her own experiences working in foster care.

          Caregiver Interviews. We interviewed the foster parents of the 28 children in family care and
          residential facility staff for the 22 children in residential care. We use the term “caregiver” to
          refer to a foster parent or a staff member of a residential facility who is responsible for the child.
          Like the caseworker interviews, our interviews with caregivers focused on training, Medicaid,
          and procuring health care services for the child. We analyzed the responses and compared
          them to those of the caseworkers, noting any consensus or disagreement within and between
          the two groups.

          State Agency Officials. We held several meetings, both in person and by telephone, with
          officials from the Division of Youth and Family Services and New Jersey Medicaid. Our
          discussions covered a wide spectrum of information to help us understand how the state’s
          foster care and Medicaid systems are organized.

          This inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Foster Care Children’s Use of Medicaid Services in NJ   5                                      OEI-02-00-00360
                                                    FINDINGS

          Foster care children are deemed eligible for Medicaid services in New Jersey. However, our
          analysis of 2 years of Medicaid claims for 50 foster children in New Jersey show that few of
          these children are receiving Medicaid services, particularly EPSDT services. In addition,
          interviews with the caseworker and caregiver for each of the 50 children reveal that
          caseworkers and caregivers are not informed about the Medicaid program and they have
          received very little training in Medicaid services for foster children. Also, most caseworkers
          and caregivers did not receive their foster child’s medical information, and they report difficulty
          finding Medicaid providers.


Claims Data Indicate That Only Half the Children in our Sample are
Receiving Medicaid Services Despite Every Child Having Coverage

          Federal law requires that foster children covered under Title IV-E of the Social Security Act be
          deemed eligible for Medicaid (see § 1902 (a)(10)(A)(i) of the Social Security Act). In New
          Jersey, foster children who are not covered under Title IV-E are eligible for Medicaid under
          New Jersey state law (Appendix B). Every child in the sample had a valid Medicaid number at
          the time of this inspection.

          Although all 50 children in the sample have Medicaid coverage, New Jersey Medicaid claims
          data show that only 24 of the 50 children have had a health care claim between April 1999 and
          April 2001. This number is far lower than expected in light of two facts: 1) New Jersey state
          law requires the Division of Youth and Family Services to make every reasonable effort to
          assure that foster children receive appropriate and necessary health care8 and 2) foster care
          children generally have more medical problems than both children outside of foster care and
          children in the general Medicaid population.

          The 24 children have a total of 1,701 paid health care claims over a 2-year period.
          Prescription medication is the most common type of claim: Twenty children have a total of 550
          prescription claims. See Table 1 below for other frequent claims. The children with claims
          have an average of six different types of services. The 26 children without Medicaid claims
          appear to have the same characteristics as those children with Medicaid claims.




          8
           NJ AC 10:122D-2.5(a)


Foster Care Children’s Use of Medicaid Services in NJ   6                                    OEI-02-00-00360
                                                                  Table 1
                                                         Health Care Claims

                         Number of Children                 Claim Type                    Number of Claims


                                    21                      Office Visits                         105

                                    21                  Diagnostic/Laboratory                     262

                                    12                     Dental Services                        126

                                     3                     Hospital Visits                        172
                                                                Source: New Jersey Medicaid Claims Data, 2001




          There are circumstances where a child may receive some type of health care service that is not
          billed through New Jersey Medicaid. A child in residential care, for instance, may get a health
          care service through the facility that is not billed to Medicaid because residential facilities often
          have providers on staff or under contract. At the time of data collection, 22 of the 50 children
          were in residential facilities. Eleven of these 22 have a Medicaid claim. Mental health
          professionals work with 14 of the facilities. Doctors and nurses work with 11 facilities and
          dentists work with six facilities.

          Also, a New Jersey foster child can be placed in foster care in another state. In those cases,
          Medicaid claim information is usually included in the child’s placement state’s data, not in New
          Jersey’s data. Our records show that five children were in out-of-state placements at the time
          of data collection. That does not mean, however, that they were out of New Jersey for the
          entire study period. Our data show that two of the five were in foster care in another state
          during the entire study period. Interestingly, one of these two has a New Jersey Medicaid
          claim.

          Only 22 Percent of Children Have Claims for Screening Services

          While states have the flexibility to design their own Medicaid programs, the EPSDT program
          requires each state to provide coverage for comprehensive and preventive child health services
          to Medicaid eligible individuals under the age of 21. In general, EPSDT treatment services
          include all mandatory and optional services available under the Medicaid program. Specifically,
          these services cover screening, vision, dental, and hearing services.9 Optional services include
          case management, physical therapy, rehabilitative services, and private-duty nursing.
          Diagnostic services are covered whenever there is a medical need to conduct further
          examination. Treatment or medical care must be provided for any physical or mental conditions
          discovered by the screening services.


          9
           Social Security Act §1905 (r)


Foster Care Children’s Use of Medicaid Services in NJ             7                                             OEI-02-00-00360
          New Jersey has set its own EPSDT periodicity schedule, based in large part on the one
          developed by the American Academy of Pediatrics. New Jersey’s schedule can be found in
          Appendix C.10 New Jersey law requires that the Division of Youth and Family Services
          ensure that foster children receive medical and dental examinations at least annually after the
          initial medical examination performed at the time of placement. The type and frequency of the
          exam shall be based on the foster child's age and medical needs.

          However, only 11 of the children have an EPSDT claim. Of these children, eight have a dental
          EPSDT claim, two have a preventive EPSDT claim, and one child has both types.

          This finding is further supported by CMS data that show New Jersey has had low EPSDT
          participation rates. The latest year of available data from CMS, 1998, show 35 percent of all
          New Jersey children who were eligible for both Medicaid and EPSDT services participated in
          EPSDT. 11 In 1995, New Jersey’s EPSDT participation rate was 32 percent, 12 percent in
          1996, and 4 percent in 1997.12 In January 2001, New Jersey began distributing $10 incentive
          payments to providers to increase reporting of EPSDT visits.

          State Funds for Services Not Covered by Medicaid are Also Used, But Few
          Children Receive These Services

          The caseworkers report that they turn to the Division of Youth and Family Services for
          assistance when they feel a foster child needs a service that is not covered by Medicaid. The
          Division will sometimes pay for a health care service that is not covered by Medicaid, such as
          replacement eyeglasses. It appears that there may be as many as three pools of funds that
          caseworkers can access for foster children’s health care needs. One is at the headquarters
          level, one is at the district offices, and one is through a cost-reimbursement contract in which a
          contracted agency provides services.

          The Division provided data on payments it made for health care services dated between April
          1999 and April 2001. These data show that the Division paid for health care services for 11 of
          the 50 children in our sample. The most common types of paid service are assessment and
          evaluation and maternity home care. In only one instance is the service a medical examination.
          Six of the 11 children who had health-related services paid by the Division do not have any
          Medicaid claims.


          10
            AAP Policy Statement Volume 105, Number 03, March 2000, pp 645 “Recommendations for Preventive
Pediatric Health Care (RE9939).”

          11
             http://cms.hhs.gov/medicaid/epsdt/ep1998.pdf, July 7, 2002.

          12
            http://cms.hhs.gov/medicaid/epsdt/ep1995.pdf, http://cms.hhs.gov/medicaid/epsdt/ep1996.pdf,
http://cms.hhs.gov/medicaid/epsdt/ep1997.pdf, January 9, 2003.




Foster Care Children’s Use of Medicaid Services in NJ          8                                          OEI-02-00-00360
          Most caseworkers and caregivers say that their foster child had the Division mandated
          comprehensive medical evaluation upon first entering foster care. But caseworkers point out
          that this exam is often performed by a nurse from a district office of the Division of Youth and
          Family Services, and one caseworker indicates that this is a quick check and not
          comprehensive.


Sampled Caseworkers and Caregivers Are Not Informed About the
Medicaid Program, Do Not Have Their Foster Child’s Medical
Information, and Have Difficulty Finding Medicaid Providers

          Caseworkers and Caregivers Report Very Little Medicaid Training

          Just one of the caseworkers reports having received any training in Medicaid services for foster
          children. This caseworker is responsible for four children in our sample. The lack of training is
          significant, given the important role that the caseworker plays in the health care of foster
          children and how frequently caregivers rely on caseworkers. The caseworker is the main
          source of information and assistance for caregivers. Caregivers turn to their caseworker when
          they need help accessing services or seek information regarding Medicaid cards or Medicaid
          providers.

          In addition, few caregivers have been given the tools necessary to negotiate the Medicaid
          system. Only eight of the caregivers say someone explained to them which services might not
          be covered under Medicaid. Sixteen report they were given a list of health care professionals
          who accept Medicaid. Twenty mention they were given a schedule of appointments that
          children need. Just five caregivers say they were given all three of these tools.

          Among caregivers, foster parents report that they do not receive general Medicaid training.
          Some say they learn about Medicaid informally from their caseworker, while other foster
          parents say they teach themselves. We examined the package given to foster parents at their
          general training and found that it does not address Medicaid. In correspondence with the
          Office of Inspector General, the Division of Youth and Family Services reported that another
          handbook is supposed to be distributed to all foster families, usually at the time of the home
          study or at the time of approval. The handbook briefly describes Medicaid and EPSDT. It
          also includes recommended medical appointment schedules. Our inspection did not determine
          whether or not foster parents received this handbook.

          Foster parents receive little training related to the health care of a foster child. Most of the 28
          foster parents say they have not received any training in regard to the health care of foster
          children. Six parents report that they have received some training. This training




Foster Care Children’s Use of Medicaid Services in NJ   9                                     OEI-02-00-00360
          ranges from a first aid course to simply receiving some information regarding Medicaid or
          getting checkup schedules. In contrast, residential facilities often have trained health care
          professionals on staff.

          Few Caregivers and Caseworkers Have Heard of EPSDT

          The CMS requires that state Medicaid agencies must “provide for a combination of written and
          oral methods designed to inform effectively all EPSDT eligible individuals (or their families)
          about the EPSDT program.”13 Only 15 of the caregivers, however, say they have heard of
          EPSDT and even fewer of the caseworkers have heard of it. For all 50 children, fewer than
          half have a caseworker or caregiver who has heard of EPSDT. Of the caregivers, residential
          facilities report knowing about EPSDT more often than foster parents.

          New Jersey Medicaid program staff report having problems mailing EPSDT forms and
          reminders to caregivers due to difficulty in obtaining foster children’s correct address from the
          Division of Youth and Family Services.

          Seventy-six Percent of the Caregivers are Not Aware of Managed Care
          Option

          Most states enroll Medicaid populations in managed care.14 A managed care organization
          offers third-party financing of necessary medical care and provides coverage for a defined set
          of medical and health benefits. Managed care also describes a system in which an individual
          primary care provider coordinates all care, including referrals to specialty services. Certain
          Medicaid populations, such as foster care children, may be “carved out” (not included) of the
          state managed care contract.

          In New Jersey, enrollment in Medicaid managed care is voluntary for foster care children.
          There are five managed care organizations in New Jersey, two of which operate throughout all
          21 counties. Caregivers may choose one of these managed care organizations and pick a
          primary care physician for the child. The primary-care provider performs routine checkups,
          provides general care and refers to a specialist, if necessary. It appears very few foster
          children are enrolled in managed care in New Jersey. Foster children not in Medicaid managed
          care are covered by Medicaid fee-for-service.




          13
             42 CFR §441.50; 42 CFR §441.56

          14
           Summary Statistics: Medicaid Managed Care Enrollment Report, June 2000,
http://www.hcfa.gov/medicaid/omchmpg.htm.


Foster Care Children’s Use of Medicaid Services in NJ     10                                 OEI-02-00-00360
          Forty-one caregivers say their child is not in managed care. Of these, only three say that
          someone explained to them that their child could be enrolled in Medicaid managed care.
          According to the Division of Youth and Family Services and New Jersey Medicaid program
          staff, the Division does not actively encourage caregivers to enroll their foster children in
          managed care. Division staff feel that foster children would not benefit from managed care
          because they move often and would frequently have to change their primary care physician.
          Another reason given is that one home or facility may have children in different managed care
          organizations and would not be able to take all of the children in that placement to the same
          provider.

          We note that there is some confusion regarding managed care. The Division of Youth and
          Family Services tells us that one child in the sample was enrolled in managed care at the time of
          this study. New Jersey Medicaid program staff, however, report that none of the children in
          our sample was enrolled in managed care at the time of the study. Adding to the confusion, the
          caregivers for four children report that the children are in managed care, but the caseworkers
          for those four children say they are not. Caseworkers for two other children mention that the
          children are in managed care, but the caregivers say the children are not. Other caseworkers
          report that they simply do not know whether their foster child is in managed care or not.

          Most Caseworkers and Caregivers Do Not Have Complete Information
          About their Foster Child’s Medical History

          According to New Jersey state law, the Division of Youth and Family Services is responsible
          for establishing and maintaining a foster child’s health care record. The Division needs to
          update and provide this record to the foster parent. The Division must also share health care
          information about the child with the child’s parents and foster parents (Appendix B).

          Caseworkers for half the children in our sample say they either did not receive the child’s
          medical records or they received only partial records. For example, the child’s immunization
          history can be missing or outdated. Caregivers for 34 of the children in our sample report that
          they did not receive a medical history on their foster child or that they did receive some
          information, but that it was incomplete. We found that the caseworkers and caregivers are not
          always aware of certain health problems that their child may have because they do not have
          enough information about their child’s medical history. In only four of the 22 cases in our
          sample where the child is identified by their caregiver as having a chronic medical condition,
          does the caregiver mention that he or she learned of the condition from the medical history. It is
          important to note that the primary source for a foster child’s medical history is the biological
          parents, and they may not be available or cooperative.




Foster Care Children’s Use of Medicaid Services in NJ   11                                  OEI-02-00-00360
          The consequences of not knowing a child’s medical background could be serious. Because
          information about the child’s medical background is limited or unavailable, a child could arrive
          at a placement with a medical problem that goes unnoticed. Food allergies could be missing
          from the background, as was the case for a foster mother we interviewed during our pre-
          inspection process. She says she discovered that her foster child, who is not in our sample,
          was allergic to peanuts only after the child had eaten some.

          Most Caseworkers and Caregivers Report Difficulty Finding Medicaid
          Providers

          Most caseworkers report that finding providers is a problem. They cite the distant location of
          dentists and mental health professionals as barriers to getting care. Caregivers, too, report
          difficulty finding providers. Almost half of the caregivers say that the lack of Medicaid
          providers is a problem for foster children. Among the caregivers, residential facilities, more
          often than foster parents, complain about a lack of Medicaid providers, despite the connections
          that facilities have with health care providers. Half of the facilities cite problems with finding a
          provider, while 18 percent of foster parents cite problems. Caregivers also mention trouble
          either finding a dentist or making a timely appointment.




Foster Care Children’s Use of Medicaid Services in NJ   12                                    OEI-02-00-00360
                                             CONCLUSION

          This inspection identifies several shortcomings in New Jersey’s child welfare and Medicaid
          systems that cause concern. We documented that, although all the children in our sample are
          covered by Medicaid, less than half have Medicaid claims and less than a quarter show EPSDT
          claims for preventive health care. Caseworkers and caregivers are not informed about the
          Medicaid system. They also do not have complete medical information about the children,
          perhaps compromising the children’s health care needs. The lack of training for both
          caseworkers and caregivers, the lack of effort to promote Medicaid managed care, despite
          caseworker and caregiver concerns about access to Medicaid providers, and the lack of
          communication and coordination between the Division of Youth and Family Services and New
          Jersey Medicaid reveal that New Jersey may not be making reasonable efforts to assure that
          foster care children are receiving appropriate and necessary health care.




Foster Care Children’s Use of Medicaid Services in NJ   13                            OEI-02-00-00360
                                RECOMMENDATIONS

          We believe that the Administration for Children and Families (ACF), CMS, and the State of
          New Jersey need to address the shortcomings in New Jersey’s child welfare and Medicaid
          systems. Accordingly, to help ensure that all eligible foster care children receive their entitled
          health care services, we recommend that:

          •	         ACF work with New Jersey to provide more training to caseworkers and caregivers
                     on the Medicaid program, EPSDT, and managed care to help them better negotiate
                     these health care systems. Two possible vehicles through which ACF may bring about
                     such a change are the Child and Family Service Reviews and the annual Joint Planning
                     Process; and

          •	         ACF and CMS work with the State of New Jersey to address the concerns of
                     caseworkers and caregivers regarding the lack of access to Medicaid providers. They
                     should also work together to promote communication between New Jersey Medicaid
                     and the Division of Youth and Family Services so that the Division and caseworkers
                     have better information about the health care that foster children are receiving.


COMMENTS

          We received comments from ACF, CMS, and the State of New Jersey. Both ACF and CMS
          agree with our recommendations. The ACF, through the Child and Family Services Plans, will
          address the need for New Jersey to provide training to caseworkers and caregivers to ensure a
          greater level of service for foster children from Medicaid providers. The Child and Family
          Services Review for New Jersey in 2004 will determine if the efforts to improve training have
          led to improved medical health outcomes for foster children.

          The CMS agrees that New Jersey Medicaid should work with the Division of Youth and
          Family Services to provide information on the availability of Medicaid providers. The CMS
          offers to provide technical assistance to the state to promote this process.

          Both ACF and CMS made a number of technical comments that we incorporated into the
          inspection report, when appropriate. The full text of the comments received from ACF and
          CMS are included in Appendix D.

          The State of New Jersey indicated that, subsequent to our field work, several projects intended
          to impact the health care needs of foster children were initiated. The full text of those
          comments can also be found in Appendix D.


Foster Care Children’s Use of Medicaid Services in NJ   14                                    OEI-02-00-00360
          It is noteworthy that the State of New Jersey reached a settlement in a class-action lawsuit
          regarding their foster care system. The Settlement Agreement establishes an oversight panel, 6
          areas for emergency action, and 11 outcome measures for children in the foster care system.
          With the increased oversight and funding and an outcome measure focused on service needs,
          we are optimistic that concerns raised in this report will be addressed.




Foster Care Children’s Use of Medicaid Services in NJ   15                               OEI-02-00-00360
                                                                                              APPENDIX A


                                              New Jersey Foster Care

          The New Jersey Department of Human Services is responsible for all the children in foster care
          within the state. Within the Department, the Division of Youth and Family Services handles the
          state’s family and child welfare services. The Division has over 3,000 employees whose tasks
          include investigating reports of abuse and neglect, providing protective and foster care services,
          licensing families and facilities that care for children, and supervising public/private contracts.15
          Within this Division is the Child Health Unit, which focuses on the health of foster children. The
          responsibilities of the Child Health Unit range from reviewing relevant agency policies and
          procedures to providing consultative services to caseworkers.

          The Division of Youth and Family Services employs 28 pediatric nurses throughout the state,
          located in district offices and adoption resource centers. Their job is to provide direct services
          for caseworkers, caregivers, and community agencies, such as performing assessments of
          children, training and answering health-related questions. According to a recent study, child
          health nurses completed 346 pre-placement assessments and provided over 1,000 training
          sessions to caregivers, Division staff, and community agencies.16 The Child Health Program
          Planner, located in the Division’s central office, serves as a liaison between the Division and the
          Child Health Program, taking on initiatives such as increasing health assessments for children
          entering foster care in certain district offices.17

          The Division cites its involvement with several programs addressing the health care needs of
          foster children. These programs include case management, placement, and many other services
          for medically fragile children. The Division also lists several services, such as assessment, for
          child abuse and neglect cases. In addition, the State of New Jersey is currently piloting a new
          project in select counties called “Children’s System of Care Initiative.” Its goal is to help
          children and adolescents with emotional and behavioral disturbances and their families across
          child-serving systems.18




          15
             http://www.state.nj.us/humanservices/dhsabout.html, June 28, 2002.

          16
           Ryan, Constance M. and Storm, Deborah., Child Health Program Year One Evaluation, New Jersey.
Francois-Xavier Bagnoud Center, University of Medicine & Dentistry of New Jersey, January 2002.

          17
             Ibid., p11.

          18
             http://www.njkidsoc.org, June 28, 2002.


Foster Care Children’s Use of Medicaid Services in NJ         16                                    OEI-02-00-00360
                                                                                         APPENDIX B


                              New Jersey State Laws and Regulations

          Medicaid Eligibility

          The New Jersey Administrative Code provides that persons eligible under the New Jersey
          Medicaid program include: "Persons for whom adoption assistance agreements are in effect
          pursuant to Section 473 of the Social Security Act (42 U.S.C. 673) or for whom foster or
          adoption assistance is paid under Title IV-E of the Act." N.J.A.C. 10:49-2.2(b)8.

          The regulations do not explicitly address foster children not eligible under Title IV-E of the
          Social Security Act. However, it appears that any child in foster care in New Jersey is eligible
          for Medicaid. Under New Jersey law:

                     "an individual under 21 years old who, without regard to resources, would be except
                     for dependent child requirements, eligible for the aid to families with dependent children
                     program under the State Plan for Title IV-A of the Federal Social Security Act as of
                     July 16, 1996, or groups of such individuals, including but not limited to, children in
                     foster placement under supervision of the Division of Youth and Family Services whose
                     maintenance is being paid in whole or in part from public funds, children placed in foster
                     home or institution by a private adoption agency in New Jersey or children in
                     intermediate care facilities, including developmental centers for the developmentally
                     disabled or in psychiatric hospitals." N.J. ST 30-40-3(6).

          The official state web site for the New Jersey foster care program also states that the costs of
          health care for "foster children are covered by Medicaid, which covers all necessary care and
          treatment." See www.njfostercare.org/faq.html

          State’s Responsibilities for the Health of Children in Foster Care

          The New Jersey Administrative Code at 10:122D-2.5, et. seq. delineates basic health care
          services for children in foster care as follows:

          “(a) The Division shall make every reasonable effort to assure that each child in foster home
          placement receives appropriate and necessary health care, including mental health services.




Foster Care Children’s Use of Medicaid Services in NJ   17                                    OEI-02-00-00360
                                                                                       APPENDIX B


          (b) For each child initially entering foster home placement, the Division shall obtain a medical
          examination at the time of placement. The Division shall establish a health care record for each
          child and shall provide the foster parent with a health care record which documents health
          information concerning the foster child, including, but not limited to:

                     1. The names and addresses of the foster child’s health care providers;
                     2. A record of the foster child’s immunizations;
                     3. The foster child’s known medical problems, if any;
                     4. The foster child’s medications, if any; and
                     5. The foster child’s allergies, if any.

          (c) The Division shall maintain a health care record for each child. The Division shall review
          and update the foster child’s health record at the time of each placement into a foster home and
          shall provide the updated record to the foster parent.

          (d) The Division shall assure that the foster child receives a medical and dental examination at
          least annually after the initial medical examination performed at the time of placement. The type
          and frequency of the exam shall be based on the foster child's age and medical needs.

          (e) The foster parent shall be responsible for arranging and providing care to meet the foster
          child’s health needs, including, but not limited to, medical and dental examinations as agreed to
          with the Division, and shall provide the Division with information concerning the foster child’s
          health care and needs.

          (f) The Division shall share health care information concerning the foster care child with the
          foster child's parents and foster parents.”




Foster Care Children’s Use of Medicaid Services in NJ   18                                     OEI-02-00-00360
                                                                                    APPENDIX C


                                         New Jersey EPSDT Schedule

          The EPSDT recommended health checkup schedule for children is an initial exam at birth
          followed by one well-child exam:

                                                    Age 6 weeks to 3 months
                                                      3 months to 5 months
                                                     5 months to 11 months
                                                    11 months to 14 months
                                                    14 months to 17 months
                                                    17 months to 20 months
                                                   between 20 and 24 months

          After 2 years of age, the child should be examined once a year through the age of 20.




Foster Care Children’s Use of Medicaid Services in NJ        19                          OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   20      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   21      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   22      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   23      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   24      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   25      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   26      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   27      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   28      OEI-02-00-00360
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   29      OEI-02-00-00360
APPENDIX D
                                                             APPENDIX D




Foster Care Children’s Use of Medicaid Services in NJ   31      OEI-02-00-00360
                              ACKNOWLEDGMENTS

          This report was prepared under the direction of John I. Molnar, Regional Inspector General for
          Evaluation and Inspections in New York and Jodi Nudelman, Assistant Regional Inspector
          General. Other principal Office of Evaluation and Inspections staff who contributed include:

          Nancy Harrison, Project Leader                         Linda Hall, Program Specialist
          Natasha Besch, Lead Analyst                            Barbara Tedesco, Statistician
          Nicole Gillette, Program Analyst
          Laura Torres, Program Analyst




Foster Care Children’s Use of Medicaid Services in NJ   32                              OEI-02-00-00360
